HHS/OIG, Audit -Review of District of Columbias Accounts Receivable System for Medicaid Provider Overpayments,(A-03-03-00222)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
Review of District of Columbias Accounts Receivable System for Medicaid Provider
Overpayments, (A-03-03-00222)
August 31, 2005
Complete
Text of Report is available in PDF format (464 kb). Copies can also be obtained by contacting
the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This review was part of a multistate audit. Our objective was to determine whether the District of
Columbia (District) reported Medicaid provider overpayments in accordance with Federal requirements.  The
District did not report all overpayments in accordance with Federal requirements during our October
1, 2001, through September 30, 2002, audit period.  Specifically, the District did not report
overpayments totaling $3,999,211 ($2,195,049 Federal share) to the Centers for Medicare & Medicaid
Services (CMS) because the overpayments had not been collected due to appeals from the providers and  did
not report overpayments totaling $16,172,361 ($9,168,584 Federal share) within the required timeframe
because the District reimbursed CMS only after collecting overpayments from providers.
We recommended that the District:  (1) include unreported overpayments totaling $3,999,211 on
the Quarterly Medicaid Statement of Expenditures for the Medical Assistance Program, Form CMS-64 (CMS-64),
and refund the $2,195,049 Federal share; (2) determine the value of overpayments identified after our
audit period that have not been reported and include them on the CMS-64; (3) establish a policy consistent
with Federal reporting requirements that accurately reports overpayments on the CMS-64; and (4) ensure
that all future overpayments are reported within 60 days in accordance with Federal regulations.  In
response to our draft report, the District concurred with the results of our audit and said that it
was in the process of reporting the identified overpayments.  The District did not address our
recommendation to determine the value of overpayments identified after our audit period that have not
been reported.